Memorandum from the Office of the Inspector General



August 31, 2009

Kimberly S. Greene, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2008-12036 – DISTRIBUTOR REVIEW OF
CITY OF OXFORD ELECTRIC DEPARTMENT



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Richard C. Underwood, Project Manager, at
423-785-4824 or Jill M. Matthews, Deputy Assistant Inspector General, Audits and
Support, at (865) 633-7430. We appreciate the courtesy and cooperation received from
your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RCU:JP
Attachment
cc (Attachment):
      Peyton T. Hairston Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      John E. Long Jr., WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, WT 4B-K
      John G. Trawick, WT 3D-K
      OIG File No. 2008-12036
Office of the Inspector General      Audit Report
                                  To the Chief Financial Officer
                                  and Executive Vice President,
                                  Financial Services




DISTRIBUTOR REVIEW
OF CITY OF OXFORD
ELECTRIC DEPARTMENT




Project Manager                                   Audit 2008-12036
Rick C. Underwood                                  August 31, 2009
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3

   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING ELECTRICITY TO
   MEMBERS OF THE SAME RATE CLASS ....................................................... 3

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 5

   CONTRACT COMPLIANCE ISSUES ............................................................... 7

   TVA OVERSIGHT OPPORTUNITIES ............................................................ 11

RECOMMENDATIONS ................................................................................ 13


APPENDICES
A. LETTER DATED AUGUST 13, 2009, FROM LYNN J. ROBBINS TO
   ROBERT E. MARTIN

B. MEMORANDUM DATED AUGUST 17, 2009, FROM KIMBERLY S. GREENE
   TO ROBERT E. MARTIN AND AMENDMENT DATED AUGUST 28, 2009




Audit 2008-12036
                             TVA Office of                                            August 2009
                             the Inspector                                        Audit 2008-12036
                             General                                              City of Oxford Electric Department
    Why the OIG Did This Review                                                   What the OIG Found
    As part of the annual audit plan, the OIG performed a review of               Our review of Oxford found improvements were needed in the
    the City of Oxford Electric Department (Oxford) which is a                    areas of:
    distributor for TVA power based in Oxford, Mississippi. Annual                • Customer Classification and Metering—We identified four
    revenues were approximately $19.3 million in fiscal year 2008.                   customers not classified correctly and metering issues that
    TVA relies on distributors to self report customer usage and                     could impact (1) the proper reporting of electric sales and
    subsequently the amount owed to TVA (Schedule 1).                                (2) nondiscrimination in providing electricity to members of the
    Customers are generally classified as residential, commercial,                   same rate class. We were unable to estimate the monetary
    and manufacturing. Within these classifications are various                      effect of all the classification and metering issues because in
    rate classes based on the customer type and usage. 
                                                                                     some instances information was not available; however, for
                                                                                     those where information was available, the monetary effect on
    The objective of the review was to determine compliance with
                                                                                     Oxford and TVA would not be material.
    key provisions of the power contract between TVA and Oxford
    including (1) proper reporting of electricity sales by customer               •   Contract Compliance —We identified four areas where Oxford
    class to facilitate proper revenue recognition and billing by                     was not meeting power contract requirements with TVA.
    TVA; (2) nondiscrimination in providing electricity to members                    Specifically, we found (1) co-mingling of electric department
    of the same rate class; and (3) use of revenues, including any                    funds with those of other City departments, (2) adjustments to
    surplus, for approved purposes such as operating expenses,                        customer bills were not made as required, (3) Oxford's
    debt service, tax equivalent payments, and reasonable                             accounting practices were not in accordance with Federal
    reserves for renewals, replacements, and contingencies.                           Energy Regulatory Commission guidelines, and (4) customer
                                                                                      contracts were not in place or proper documentation was not
                                                                                      kept for one customer to verify compliance with the small
    What the OIG Recommends                                                           manufacturing credit.

    We recommend the Chief Financial Officer (CFO) take action                    In addition, we found Oxford had more than enough cash on hand
    to ensure Oxford (1) remediates classification and metering                   to cover planned capital projects and provide a cash reserve. The
    issues and institutes controls to prevent the issues from                     cash reserve after planned capital projects was about 6.6 percent
    reoccurring; and (2) complies with contract provisions related                which was within the guidelines (cash ratio of 5 to 8 percent) TVA
    to co-mingling of funds, customer bill adjustments, accounting                established to determine if a distributor has adequate cash
    practices, and customer contracts. In addition, the CFO                       reserves.
    should (1) perform joint costs studies every three to four years
                                                                                  •   As of June 30, 2008, Oxford reported about $2.16 million in
    for all distributors with joint operations, and (2) provide
                                                                                      cash and prepayments and planned capital expenditures of
    guidance on when a demand meter is required.
                                                                                      about $1.11 million which left a cash reserve of about
    In separate reports issued on other distributors in May 2009,                     $1 million.
    TVA responded to and provided an action plan for findings                     Also, we identified certain opportunities to enhance TVA oversight
    related to (1) contracts for customers whose demand exceeds                   of the distributors. Specifically, we noted TVA (1) has not
    50 kW, (2) guidance for distributors on what constitutes                      performed a joint cost study in over 20 years when the TVA
    prudent expenditures, and (3) defining how often meters
                                                                                  Accountant's Manual calls for one to be performed every three to
    should be tested by the distributors. Those responses were
                                                                                  four years or when major changes occur that affect joint
    incorporated into this report where applicable.
                                                                                  operations and (2) has not defined at what point a demand meter
                                                                                  is required for a general power service (GSA) Part 2i customer.
    TVA and Oxford management generally agreed with and are
    taking actions to address the recommendations with the                        TVA is in the process of addressing findings from previous
    exception of the issue related to co-mingling of funds. See                   reviews that we also found at Oxford related to (1) a lack of
    Appendices for complete responses.                                            guidance for distributors on what constitutes prudent expenditures
                                                                                  and (2) how often meters should be tested by the distributors.
    For more information, contact Richard Underwood, Project Manager, at
    (423) 785-4824 or Jill Matthews, Deputy Assistant Inspector General, Audits
    and Support, at (865) 633-7430.




i
    The GSA rate schedule applies to the firm power requirements (where a customer's contract demand is 5,000 kW or less) for electric service
    to commercial, industrial, and governmental customers and to institutional customers including, without limitation, churches, clubs, fraternities,
    orphanages, nursing homes, rooming or boarding houses, and like customers. There are three parts to this rate schedule, and Part 2
    customers meet the following requirements: (a) the higher of (i) the customer's currently effective contract demand or (ii) its highest billing
    demand during the latest 12-month period is greater than 50 kW but not more than 1,000 kW or (b) if the customer's billing demand is less
    than 50 kW and its energy takings for any month during such period exceed 15,000 kWh. .
                                                                                                                                               Page i
Office of the Inspector General                                                               Audit Report


BACKGROUND
The City of Oxford Electric Department (Oxford) is a distributor for Tennessee
Valley Authority (TVA) power based in Oxford, Mississippi, with revenues from
electric sales of approximately $19.3 million in fiscal year (FY) 2008. TVA relies on
distributors to report customer usage and subsequently the amount owed to TVA
(Schedule 1). Customers are generally classified as residential, commercial,
manufacturing, and lighting. Within these classifications are various rate classes
based on the customer type and usage. Table 1 shows the customer mix for
Oxford as of June 2008.

                            Oxford's Customer Mix as of June 2008

                                               Number of                                  Kilowatt
       Customer Classification                 Customers              Revenue            Hours Sold
    Residential                                          6,203           $6,789,864         80,930,550
    General Power – 50 kW & under                        1,948            3,539,639         36,432,577
    (Commercial)
    General Power – Over 50 kW                             199             8,378,343      111,946,888
    (Commercial or Manufacturing)
    Street and Athletic                                     19              408,155         3,162,282
    Outdoor Lighting1                                        5              176,795         1,588,747
     Total                                               8,374          $19,292,796       234,061,044
                                                                                               Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Oxford, like many other distributors, outsources its billing and
invoice processing to a third-party processor, Central Service Association (CSA).
Oxford uses CSA systems to establish and set up new customers, input customer
meter information, perform the monthly billing process, and execute customer
account maintenance. Additionally, CSA provides Oxford with management
reporting (e.g., exception reports). All other accounting and finance responsibilities
are done by Oxford which has a Board of Alderpersons and Mayor providing
oversight and a manager and accountant managing the daily activities. Oxford
does not have any nonelectric business interests. However, Oxford does provide
billing and collection services for other City of Oxford utilities.




1
     This customer count represents those customers who only have Outdoor Lighting accounts with the City of
     Oxford Electric Department. Another 374 customers at June 30, 2008, had outdoor lighting accounts with
     the City of Oxford Electric Department as well as accounts for other services. The kilowatt hours sold
     include all kilowatt hours for all accounts.
Audit 2008-12036                                                                                   Page 1
Office of the Inspector General                                             Audit Report


OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA and
Oxford including:

•   Proper reporting of electricity sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
•   Nondiscrimination in providing electricity to members of the same rate class.
•   Use of revenues, including any surplus, for approved purposes such as:

    − Operating expenses;
    − Debt service;
    − Tax equivalent payments; and
    − Reasonable reserves for renewals, replacements, and contingencies.

To achieve our objective, we:

•   Obtained Oxford electronic billing information from CSA for the audit period.
    The information was not complete because CSA does not maintain historical
    information for inactive customers. We used the information available to
    generate reports of exceptions related to classification and metering and
    conducted further review of documentation or discussed with management.
•   Documented and tested the procedures and controls in place to ensure
    complete and accurate invoicing of payments to TVA.
•   Determined through inquiry and review of documentation whether Oxford had
    any nonelectric, system-related business interests supported by electric system
    funds.
•   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
•   Reviewed cash and cash equivalents in relation to planned capital expenditures
    and other business uses of cash.
•   Used nonstatistical sampling methods as needed to perform the tests above.

The scope of the review was for the period July 2006 through June 2008.
Fieldwork was conducted in March and April 2009. This performance audit was
conducted in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit


Audit 2008-12036                                                                   Page 2
Office of the Inspector General                                            Audit Report


objectives. In performing this audit, nothing came to our attention that indicated
noncompliance with applicable laws and regulations.


FINDINGS
Our review of Oxford found issues involving customer classification and
metering that could impact (1) the proper reporting of electric sales and
(2) nondiscrimination in providing electricity to members of the same rate class. In
addition, we found Oxford had more than enough cash on hand to cover planned
capital projects and provide a cash reserve. The cash reserve after planned capital
projects was about 6.6 percent which was within the guidelines (cash ratio of
5 percent to 8 percent) TVA established to determine if a distributor has adequate
cash reserves.

We also found improvements were needed to comply with contract provisions in
the areas of (1) co-mingling of funds, (2) customer bill adjustments, (3) Oxford's
accounting practices, and (4) customer contracts. Finally, as we explain herein,
there are certain opportunities to enhance TVA oversight of the distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING ELECTRICITY TO
MEMBERS OF THE SAME RATE CLASS
As discussed below, we identified issues involving the classification of customers
and metering which could impact the proper reporting of electric sales. In addition,
these issues impact the ability to ensure nondiscrimination in providing electricity to
members of the same rate class as provided for in Section 5 Resale Rates
subsection (a) of the power contract between TVA and Oxford which states that,
"power purchased hereunder shall be sold and distributed to the ultimate
consumer without discrimination among consumers of the same class and that no
discriminatory rate, rebate, or other special concession will be made or given to
any consumer, directly or indirectly." We were unable to estimate the monetary
effect of all of the issues because in some instances information was not available;
however, for those where information was available, the monetary effect on Oxford
and TVA would not be material. Additionally, correction of classification and
metering issues is necessary to ensure all customers are placed in the correct rate
classification and treated like other customers with similar circumstances.

Customer Classification Issues
We found four customers which were not classified properly. Three customers
were commercial customers classified within the general power service (GSA)
Schedule of the General Power Rate. The GSA Schedule is divided into three




Audit 2008-12036                                                                Page 3
Office of the Inspector General                                                                          Audit Report


parts--Part 1, Part 2, and Part 3--based on electric usage and demand.2 The
issues identified for the three customers relate to which part of the GSA Schedule
the customer was assigned. The fourth customer's unoccupied units of their multi-
unit dwelling were not classified in the same manner as unoccupied units in other
multi-unit dwellings. The monetary impact of the classifications issues below was
not material to Oxford or TVA. Specifically, we noted:

•       One customer was reclassified from a GSA Part 23 rate schedule to receive the
        GSA Part 12 rate early. According to the General Power Rate--Schedule GSA,
        a customer with demand greater than 50 kW must stay on the GSA Part 2 rate
        schedule for 12 months after the last month in which the customer exceeded
        50 kW demand or 15,000 kWh of usage. However, this customer was
        reclassified after six months. Oxford personnel were unable to explain why this
        change occurred early.

•       Two customers were classified as GSA Part 1 instead of GSA Part 2.
        According to the General Power Rate--Schedule GSA, a customer should be
        classified as a GSA Part 2 if (1) usage is over 15,000 kWh, or (2) metered
        demand exceeds 50 kW, or (3) contract demand is greater than 50 kW. When
        a customer is moved to GSA Part 2, they must remain at that classification for
        12 months after the usage meets the Part 2 criteria. We found:

        − One customer had usage greater than 15,000 kWh in one month; therefore,
          the customer should have been classified as a GSA Part 2 for the next
          12 months.



2
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs for
    more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent the
    high costs electric companies pay for generating and transmission capacity that sits idle most of the time.
    Demand charges are based on the amount of energy consumed in a specified period of time known as a
    demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips, December 2000,
    Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service, Technology &
    Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm).
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that metered
    demand be calculated as “the highest average during any 30-consecutive-minute period of the month of the
    load metered in kW.”
3
    Under the GENERAL POWER RATE SCHEDULE GSA between Oxford and TVA, customers are classified
    as GSA Part 1, GSA Part 2, or GSA Part 3 based on the following requirements:
    •   GSA Part 1 - If (a) the higher of (i) the customer's currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer's
        monthly energy takings for any month during such period do not exceed 15,000 kWh.
    •   GSA Part 2 - If (a) the higher of (i) the customer's currently effective contract demand or (ii) its highest
        billing demand during the latest 12-month period is greater than 50 kW but not more than 1,000 kW or
        (b) if the customer's billing demand is less than 50 kW and its energy takings for any month during such
        period exceed 15,000 kWh.
    •   GSA Part 3 - If the higher of (a) the customer's currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2008-12036                                                                                               Page 4
Office of the Inspector General                                           Audit Report


    − One customer had metered demand of 50.4 kW in April 2007 and had a
      contract demand of 60 kW. Either one of these conditions should have
      resulted in the customer being moved to the GSA Part 2 classification.
      Based on information provided by billing agency personnel, the legacy CSA
      system used by Oxford does not change a customer from GSA Part 1 to
      GSA Part 2 based on metered demand until after that demand exceeds
      50.499 kW rather than the 50 kW as stated by General Power Rate
      Schedule – GSA Part 2. Notes found in the customer's file indicated the
      customer was not automatically changed to a GSA Part 2 by the system;
      therefore, contract demand could not be entered into the CSA system due
      to system restrictions on the lower rate class.

•   In contrast to other multi-unit dwelling complexes, one customer was allowed to
    stay at a Residential revenue class and charged the residential rate even when
    the unit was unoccupied. However, according to Oxford personnel all other
    apartments, condos, etc., are reclassified as Commercial class clients and
    charged at GSA Part 1 when units are unoccupied.

Metering Issues
In addition to the customer classification issues, our review of billing agency data
noted the following issues related to metering of customers at Oxford. We were
unable to estimate the monetary effect because meters were not in place which
would provide information to make the estimates. We found:

•   Thirteen customers classified as a GSA Part 2 had energy usage in excess of
    15,000 kWh but were not measured for demand. Under Part 2 of the GSA
    Schedule and the Wholesale rate schedule with TVA, there would be no affect
    on the revenues for TVA or the distributor unless customer demand exceeded
    50 kW. Without meters in place, we could not determine if any of these
    customers would have exceeded 50 kW.

•   One customer with multiple accounts that are similar in nature has one account
    which was not metered. Oxford personnel indicated all of the accounts should
    be metered. This specific account had an entry in the billing system for its
    meter number that read "NOMETER." The reported usage amount was
    constant at 615 kWh each month, and the customer was billed for this
    estimated amount rather than the actual usage.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses; (2) debt service;
(3) tax equivalent payments; and (4) reasonable reserves for renewals,
replacements, and contingencies. We found Oxford had more than enough cash
on hand to cover planned capital projects and provide a cash reserve. The cash
reserve after planned capital projects was about 6.6 percent which was within the


Audit 2008-12036                                                               Page 5
Office of the Inspector General                                                                      Audit Report


guidelines (cash ratio4 of 5 to 8 percent) TVA established to determine if a
distributor has adequate cash reserves.5

As of June 30, 2008, Oxford had about $ 2.145 million in its actual cash accounts
and approximately $14,000 in its TVA Power Invoice Prepayment account which
totaled about $2.159 million. Table 2 shows information about plans for major
capital expenditures obtained from Oxford's general manager and our review of
Oxford's Board of Alderperson's meeting minutes.

                              Oxford's Planned Capital Expenditures


                     Capital Expenditure Plans                                             Project Cost
General Growth - Plant                                                                           $825,000
Distributions System Improvements                                                                  $35,000
Signal System Upgrades                                                                             $65,000
Special OH to UD Relocations                                                                       $45,000
Fiber Infrastructure                                                                               $36,000
AMR Infrastructure                                                                                 $50,000
Vehicles                                                                                           $52,850
 Total Planned Expenditures Funded From Cash Reserves                                          $1,108,850

Other Projects to be funded with Loan from TVA 6
Univ Ave UD Project                                                                              $1,350,000
Substation Improvements                                                                          $1,250,000
 Total Planned Expenditures To Be Funded by Loan                                                 $2,600,000

     Total Planned Capital Expenditures                                                          $3,708,850
                                                                                                      Table 2

When compared to Oxford's capital expenditure plans for the foreseeable future,
the balance in the TVA Power Invoice Prepayment account and Oxford's Cash
accounts was enough to pay for these items and leave about $1 million as a
reserve, as shown in Table 3. Table 3 also shows Oxford's cash ratio percentage
was about 13.6 percent before accounting for planned capital expenditures and
about 6.6 percent after accounting for them.
4
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash equivalents
                            Total Variable Expenses (Operations and Maintenance + Purchased Power)
5
    We noted in separate reports issued on other distributors in May 2009 that while TVA has established
    guidelines to determine if a distributor has adequate cash reserves (cash ratio of 5 to 8 percent), TVA has
    not established guidelines to determine if a distributor’s cash reserves are excessive. We recommended
    TVA develop criteria to be used in determining whether a distributor's cash reserves are excessive and
    incorporate the criteria into the rate setting process. TVA Management agreed and says it will make
    recommendations to the TVA Board that additional financial metrics be employed for purposes of
    administering the resale rate provisions in Section 5 of the wholesale power contracts. The need to consider
    cash reserves is to be included in TVA management's recommendations to the Board. A change in the
    current guidelines to include these additional financial metrics requires Board action. Target completion
    date is December 2010.
6
    Documentation provided by Oxford indicated these two projects would be funded with the proceeds of a loan
    from TVA which had not been received at June 30, 2008.
Audit 2008-12036                                                                                           Page 6
Office of the Inspector General                                                                 Audit Report


        Oxford's Cash Accounts Compared to Planned Capital Expenditures

                                     Cash and Cash
                                    Equivalents Plus   Planned Capital            Reserve After Planned
                                  Prepayment Account Expenditures                  Capital Expenditures
                                             2,159,414      $1,108,850                         $1,050,564
FY 2008
Cash Ratio Percentage                             13.59%                                               6.61%
                                                                                                      Table 3

Discussions with Oxford's management indicated the operating philosophy of the
Mayor, Board of Alderpersons, and management was to use a conservative,
generally debt-averse approach. However, in June 2008, Oxford's Board of
Alderpersons approved the Electric Department to request a $3 million dollar loan
to pay for two capital projects. As of June 30, 2008, the loan had not been
completed and funds had not been received. According to TVA records, over the
past five years, Oxford was approved for rate increases in 2003, 2005, and 2008.
Table 4 shows the rate increases received by Oxford and the cash position and
cash ratio at June 30 prior to the effective date of the rate increase.

                Oxford's Rate Increases, Cash Position, and Cash Ratio

                               Cash and Cash Equivalents7                          Rate Increase8
                                      and Cash Ratio
  Cash on Hand                                    Without
Equivalent to an 8%           With Prepay          Prepay                Additional                Effective
    Cash Ratio                 Account           Account                 Revenue Percent             Date
                                  $837,004             $837,004
        $882,470                                                           $68,575      0.59%      10/1/2003
                                  (CR – 8%)             (CR – 8%)
                               $3,006,515             $2,186,154
       $1,016,902                                                         $274,843      2.12%      10/1/2005
                                  (CR – 24%)           (CR – 17%)
                               $2,916,665             $1,786,143
       $1,271,507                 (CR – 18%)           (CR – 11%)         $297,391      1.63%      04/1/2008
                                                                                                      Table 4

CONTRACT COMPLIANCE ISSUES
Our review noted four areas where Oxford was not meeting the requirements of
the power contract with TVA. Specifically, we found (1) co-mingling of electric
department funds with those of other City departments; (2) adjustments to
customer bills were not made as required; (3) current accounting practices resulted
in a prepaid expense being recorded as cash, capital projects not being recorded
as fixed assets when completed, and inaccurate allocations of costs between City


7
    The cash and cash equivalents and cash ratio were computed based on information from Oxford annual
    report as of June 30 prior to the effective date of the rate increase.
8
    These are the rate increases requested by and approved for the distributor. These increases do not include
    any rate increases or decreases made by TVA, including fuel cost adjustments, which were passed through
    by the distributor to the customer.
Audit 2008-12036                                                                                     Page 7
Office of the Inspector General                                           Audit Report


departments; and (4) customer contract issues. Below is further discussion on
these items.

Co-Mingling of Funds
The power contract between Oxford and TVA states, "electric system funds and
accounts shall not be mingled with other funds or accounts of Municipality." Our
review noted that cash collections for other City services are co-mingled with cash
collections for Electric services in the same bank account. According to TVA
personnel, TVA has allowed the practice of the distributor using the same bank
account(s) for all of their business activities. Also, TVA has allowed a distributor,
like Oxford, that does billing for other City departments to perform these activities
in the same electric general ledger as long as the items are separately accounted
for each month.

The Oxford financial statements at June 30, 2007, and June 30, 2008, included
cash for collections of other City services in the Cash balances reported as Electric
Department Assets. After we had identified this issue, TVA Distributor Accounting
sent the Field Accountant responsible for Oxford to review the issue, and he found
that the payments to the City consistently lag two months behind the actual
collections for other City services.

In addition, it appears that the June 30, 2008, and 2007, balances shown on the
financial statements in the receivables account "Customers' Accounts" of
$2,760,356 and $2,904,225, respectively, include customer receivables for
services provided by other City departments.

Customer Bill Adjustments
Our review of meter tests performed by Oxford during FY 2007 and FY 2008 noted
13 instances where meter tests indicated the meter was in excess of two percent
slow or fast. Part 20 Meter Tests of the Schedule of Rules and Regulations of the
TVA Power Contract with the City of Oxford states that, "In case the test shows
meter to be in excess of two percent (2%) fast or slow, an adjustment shall be
made in customer's bill over a period of not over thirty (30) days prior to date of
such test, and cost of making test shall be borne by Distributor." According to
Oxford personnel, no adjustments had been made to customers' bills as a result of
the tests.

Accounting Practices
We noted three instances in which Oxford's accounting records did not conform to
Federal Energy Regulatory Commission (FERC) guidance. Under the contract, the
distributor is required to keep the books of the electric system according to the
Federal Power Commission Uniform System of Accounts (USofA). The Federal
Power Commission was replaced by FERC in 1977 under the Department of
Energy Organization Act. The FERC USofA requires the utility keep its accounts
on the accrual basis. Specifically, we found (1) a prepayment for power is
recorded as a cash-temporary investment instead of a prepaid expense,
(2) construction work in progress (CWIP) for completed projects had not been
moved to fixed assets, and (3) inaccurate allocations of costs between City
Audit 2008-12036                                                               Page 8
Office of the Inspector General                                          Audit Report


departments. Inaccurate financial reporting to TVA could result in TVA relying on
invalid information when reviewing and making decisions on distributor requests for
rate increases or other regulatory approvals.

Prepayment
Oxford's accounting records show the TVA Power Invoice Prepayment account as
a cash-temporary investment account when it should be recorded as a prepaid
expense. Under TVA's Power Invoice Prepayment Program, a distributor could
prepay its current or future amounts due for power invoice(s). In return, TVA
provides the distributor with an early payment credit which will accrue on the
distributor's account daily. The interest rate used in calculating the early payment
credit to be applied to the account changes monthly. According to the FERC
USofA, when payments are made in advance, the amount applicable to future
periods should be charged to an account titled Prepayments and spread over the
periods to which the amounts are applicable by credits to the Prepayments
account and charges to the accounts appropriate for the expenditure.

In a separate report on another distributor issued in May 2009, we recommended
the distributor change accounting practices to be in accordance with FERC to
accurately record the prepayment of power as a prepaid expense. The Chief
Financial Officer (CFO) agreed with our recommendation and stated TVA will work
with each distributor to ensure energy prepayments are classified as a prepaid
expense in the distributor's FY 2009 annual financial statements. Target
completion date is December 2009.

Construction Work in Progress
Our review of the June 2008 audited financial statements noted a $4,563,588
balance in the Construction Work in Progress at June 30, 2008. This amount
appears to be overstated by approximately $1,086,281. Information provided by
Oxford management indicated there were over $1 million in work orders completed
during FY 2008. However, Oxford had not closed these work orders in the
accounting system; therefore, the amounts had not been moved from CWIP to
fixed assets as of June 30, 2008. According to Oxford management, at the time of
our audit, Oxford was still working to get these projects closed and transferred from
CWIP to Fixed Assets in the accounting system. As a result, the information
shown on Oxford's FY 2008 financial statements and annual reports to TVA would
not accurately reflect the fixed assets and depreciation expense. Also, according
to the information provided by Oxford, an additional $3,815,696 of projects
completed earlier in FY 2009 has not been closed in the accounting system.

Cost Allocations
Our review of allocations made during the audit period found the allocation
percentages were not applied in accordance with the last study or applied
consistently. We noted, from 2005 until March 2008, when an error in an internal
spreadsheet was identified and corrected, the allocation payment to the City for the
salaries of the Alderpersons and Mayor were based on previous salary amounts.
This resulted in an apparent under payment to the City of about $11,741 through
March 2008.
Audit 2008-12036                                                              Page 9
Office of the Inspector General                                           Audit Report


Customer Contract Issues
We noted three areas related to customer contracts where improvements could be
made by Oxford. Specifically, we found (1) required contracts for Oxford
customers with demand greater than 50 kW were not in place for all customers,
(2) one customer did not have a contract or have contract demand for all meters,
and (3) appropriate information to verify one customer's qualifications for the small
manufacturing credit was not in place. Below is further discussion on these items.

Customer Contracts When Demand Exceeds 50 kW
Under Oxford's contract with TVA, all customers that exceed 50 kW monthly are
required to sign a formal contract. We randomly selected 35 customers classified
as GSA Part 2 or higher in the billing agency data and found 30 had billed demand
in excess of 50 kW during the audit period indicating that a contract with the
distributor was required. Of these 30, six did not have contracts with Oxford. The
contract includes a contract demand which is used in placing the customer in the
correct classification. For example, a customer becomes a GSA Part 2 when
either (1) the customer's currently effective contract demand or its highest billing
demand during the latest 12-month period is more than 50 kW but less than
1,000 kW, or (2) the customer's billing demand is less than 50 kW and its energy
takings for any month during such period exceed 15,000 kWh. Contract demand is
also used in calculating the customer's billed demand and minimum bill.

In a separate report on another distributor issued in May 2009, we recommended
the distributor review management reports listing customers that are above 50 kW
hours without a contract and work with these customers to obtain signed contracts.
TVA agreed the Schedule of Rates and Charges requires distributors to obtain
contracts with all customers whose actual or contract demand exceeds 50 kW.
However, TVA did not agree with our recommendation to review management
reports listing customers that are above 50 kW hours without a contract and work
with these customers to obtain signed contracts. Rather, TVA management finds
that the contract size threshold of 50 kW was established in 1963, and the relative
customer size in 2009 versus 1963 is very different. Likewise, requiring contracts
with small commercial customers is a time-consuming and difficult task which may
provide little benefit for distributors or the TVA system. TVA management will
recommend to the Board that a new and higher threshold be established as part of
the rate change process with the distributors. When the rate change is put into
effect, all retail customers above the new threshold will be expected to have
executed contracts. Target completion date will coincide with the rate change
efforts that are currently under way with the distributors and is expected to be in
place by October 2010.

Customer Contract Does Not Contain Contract Demand For All Meters
Our review of billing agency data identified one customer that has two demand
meters; however, only one meter had a contract demand entered in the billing
system. Both meters are recorded as GSA Part 2 and should have contract
demand entered in the system. Under the GSA Part 2 rate schedule in the
contract, the contract demand amount in the billing system is used to calculate
both the monthly demand charge and the minimum bill amount.
Audit 2008-12036                                                             Page 10
Office of the Inspector General                                          Audit Report


Small Manufacturing Credit Certification
We noted one Oxford customer was receiving the Small Manufacturing Credit
(SMC); however, Oxford did not have the required certification/application on file to
show the customer qualified for the credit. This customer originally received credit
under a previous TVA program, the Large Manufacturer Bill Credit Agreement
(LMBC), which was grandfathered into the SMC program. The LMBC required
each customer receiving the credit to have completed an application form prior to
receiving the credit and the application be approved by TVA. This was required to
verify the (1) customer's contract demand would fall between 1,000 kW and
5,000 kW and (2) company had a Standard Industrial Classification code which fell
between 20 and 39, inclusive, to qualify for the program. The LMBC was
supplemented and amended in October 2003 to provide for revised and extended
manufacturing credits for small manufacturing loads. This amendment became
known as the SMC. According to Oxford management, this customer left the
Oxford service area in June 2009.

TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA's oversight of the distributors.
Specifically, we noted TVA has not (1) performed a joint cost study in over
20 years when the TVA Accountant's Manual calls for one to be performed every
three to four years or when major changes occur that affect joint operations,
(2) provided adequate guidance on when a demand meter is required, (3) provided
definitive guidance for distributors on what constitutes prudent expenditures, and
(4) adequately defined how often meters should be tested by the distributors.

Joint Cost Allocation Studies
The current allocation of expenses between Oxford and other City departments is
based on a joint cost allocation study prepared in 1988 when Oxford shared office
space in the Court House with other City departments and has not been formally
reviewed in the last 21 years. The TVA Accountant's Reference Manual states
that, "the electric system is regarded as a separate department even though, for
efficiency and economy, some activities may be combined with other municipal or
cooperative non-electric operations." Any shared costs would be allocated among
departments on an equitable basis. Interdepartmental services are settled by
monthly cash transfers. Allocations may be made based on space occupied;
direction of effort, customers served or any other means that reasonably distribute
costs among user departments. These cost allocations should be formally
reviewed every three to four years by the distributor and TVA, or when major
changes occur that affect joint operations. The joint cost allocation study needs to
be updated for Oxford to ensure the proper allocations of expenses occur between
City departments.

No Guidance as to When a Demand Meter is Necessary
TVA could provide additional guidance on when installation of a demand meter is
required. The GSA rate schedule indicates that customers should be moved from
GSA Part 1 to GSA Part 2 when their usage exceeds 15,000 kWh during any
month. While GSA Part 1 customers are only billed for energy usage, GSA Part 2
Audit 2008-12036                                                             Page 11
Office of the Inspector General                                           Audit Report


customers are to be billed for any demand that exceeds 50 kW. However, TVA
has not provided guidance to the distributors to (1) indicate at what point a GSA
Part 2 customer should be required to have a meter that measures demand,
(2) how often line monitors should be used to test whether a customer is nearing or
exceeding the 50 kW demand threshold, or (3) what documentation should exist
for GSA Part 2 customers to provide justification for why a demand meter does not
need to be installed.

TVA currently performs an annual "true-up" to account for distribution losses (i.e.,
the difference between kWhs used (as reported by the distributor on Schedule 1)
and the kWhs delivered to the distributor by TVA). The DLF is calculated on the
difference of kWhs but is applied to both kWh and kW demand because a similar
calculation cannot be performed for kW demand. By issuing guidance as to when
demand meters should be installed at distributor customers, TVA could increase
the accuracy of the reporting of end-user demand and receive payment for
demand not currently being reported.

No Policies Defining Appropriate Expenditures
We noted TVA could improve the controls over the use of electric system funds by
providing more definitive guidance to the distributors. While reviewing the proper
use of electric system revenue, we noted there were no definitive policies on
permitted expenditures (charity, scholarships, etc.) or investments/account
establishment. TVA has allowed distributor management and distributor Board's
discretion in the decision-making process for determining what qualifies as
operational expenditures. Additional guidance in this area by TVA would decrease
the likelihood of misinterpretation of what constitutes a reasonable use of electric
funds. In discussions with the TVA Vice President, Strategy, Pricing, and
Contracts, actions to address recommendations in a previous review of TVA's role
as a regulator (Inspection 2005-522I) include the development of distributor
guidance pertaining to the use of electric system funds.

In a separate report on another distributor issued in May 2009, we recommended
TVA develop a comprehensive guide on permitted expenditures under the use of
electric system revenues provision and expense accrual for distributor
management to use going forward. The CFO agreed it is appropriate to look at
permitted expenditures in the context of the use of revenues provision in Section 6
of the wholesale power contract with the distributors. TVA management is
exploring with the TVA Board the extent to which a comprehensive guideline is
feasible and whether the TVA Board desires to adopt a policy that would employ
such a guideline. Target completion date is December 2010.

Meter Accuracy
TVA could provide more definitive guidance regarding the frequency of meter
testing for distributors. In discussions with Oxford personnel, we found that they
did not have any regularly scheduled tests of meters or specific strategy for testing
a certain percentage of meters each year. When we asked to see the results of
their most recent meter tests during our site visit in March 2009, the most current
provided was June 2007.
Audit 2008-12036                                                             Page 12
Office of the Inspector General                                                               Audit Report


Under the power contract with Oxford, Part 20 (Meter Tests) of the Schedule of
Rules and Regulations states: "Distributor will, at its own expense make periodical
tests and inspections of its meters in order to maintain a high standard of
accuracy." Additional guidance in this area could lead to (1) timely identification of
inaccurate meters, (2) timely correction of errors, and (3) a uniform testing
frequency of meters across distributors. This could result in (1) additional revenue
collected by the distributor and (2) reduced distribution loss payments9 to TVA.
The reduction of these payments and the collection of additional revenues by the
distributor, if significant, could reduce the need for future rate increases by
distributors. In addition, the distributor would be reporting more accurate usage
and demand information to TVA (both from a volume and billing rate classification
standpoint) for revenue collection and future rate setting purposes.

In a separate report on another distributor issued in May 2009, we recommended
the TVA review the requirements in the power contract and develop more definitive
guidance on how often meters should be tested. TVA management stated they
expect to soon begin formal implementation of a rate change that will replace end-
use wholesale rates with a structure that will be primarily based on wholesale
meter data. Target completion date will coincide with the rate change efforts that
are currently under way with the distributors and is expected to be in place in
October 2010. The power contracts do not address the frequency of meter testing.
TVA views this as a utility standards issue for the distributor. However, TVA will
work with the distributor group, Tennessee Valley Public Power Association, to
develop recommendations on common meter testing criteria. Target completion
date for common meter testing criteria is October 2010.


RECOMMENDATIONS
We recommend the CFO work with Oxford to improve compliance with the
contract. Specifically, Oxford should:

1. Develop controls to reduce the likelihood of a customers' rate classification
   being changed in a manner that does not comply with the rate schedules.




9
    Distribution loss payments are calculated using a distribution loss factor (DLF) which is the difference
    between the kWhs used (as reported by the distributor on Schedule 1) and the kWhs delivered to the
    distributor by TVA. Each month, the 12-month rolling average of the DLF is multiplied by the "Total
    Demand and Energy Charges" for the month and added to the amount owed to TVA by the distributor on
    Schedule 1. The "Total Demand and Energy Charges" includes charges for both kWh and kW demand.
    There is not a mechanism to perform the same calculation for kW demand as for kWh. As a result, TVA's
    practice is to also apply the DLF which is based on kWh to the kW demand charges. In this review, we did
    not try to determine if there is a more accurate method.
    On an annual basis, TVA and the distributor perform a "Distribution Loss Trueup." This trueup uses the
    preceding 12-month average of the DLF multiplied by the total of the "Total Demand and Energy Charges"
    for the 12-month period and then subtracts the monthly estimated Distribution Loss Charges paid to TVA to
    determine if the distributor owes additional money to TVA or if a credit is due to the distributor.
Audit 2008-12036                                                                                  Page 13
Office of the Inspector General                                         Audit Report


    Oxford's Response – Oxford stated they had worked with CSA and resolved
    these classification and billing issues. See Appendix A for Oxford's complete
    response.

    TVA Management's Comments – The CFO agreed with our recommendation
    and noted Oxford had worked with CSA and resolved these classification and
    billing issues. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the actions taken, and no further
    action is necessary.

2. Work with the billing agency to ensure that the software system has appropriate
   internal edits to properly classify customers based on both actual usage/
   demand and/or contract demand and that the customer remains in the proper
   rate class for the appropriate period of time.

    Oxford's Response – Oxford stated they had worked with CSA and resolved
    these classification and billing issues. See Appendix A for Oxford's complete
    response.

    TVA Management's Comments – The CFO agreed CSA's software design
    and controls should not have allowed this to happen without an override of the
    system controls and our recommendation. The CFO also noted Oxford had
    worked with CSA and resolved these classification and billing issues. See
    Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the actions taken, and no further
    action is necessary.

3. Monitor customer accounts for multi-unit dwelling addresses to more
   consistently treat all customers of the same class in the same manner.

    Oxford's Response – Oxford stated they had worked with CSA and resolved
    these classification and billing issues. See Appendix A for Oxford's complete
    response.

    TVA Management's Comments – The CFO agreed the power contract
    requires consistent treatment of customers and agreed to our recommendation.
    The CFO also noted Oxford had worked with CSA and resolved these
    classification and billing issues. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the actions taken, and no further
    action is necessary.




Audit 2008-12036                                                            Page 14
Office of the Inspector General                                          Audit Report


4. Develop a procedure to either routinely monitor demand or place demand
   meters at customer service addresses where usage has exceeded
   15,000 kWh.

    Oxford's Response – Oxford stated they are in the process of installing
    demand meters on customer accounts that might fall into this classification.
    See Appendix A for Oxford's complete response.

    TVA Management's Comments – The CFO agreed distributors should monitor
    demand so they can be sure they comply with the GSA rate schedule
    requirements. The CFO stated TVA will encourage the distributor to develop
    such procedures as a matter of good business practice. The CFO also noted
    Oxford is in the process of installing demand meters on customer accounts that
    might fall into this classification. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the planned actions.

5. Monitor customer accounts to increase the likelihood that all service addresses
   are metered.

    Oxford's Response – Oxford stated they have installed the meter which was
    not in place at the time of the audit. See Appendix A for Oxford's complete
    response.

    TVA Management's Comments – The CFO agreed with our recommendation
    and stated TVA's Field Accountant will assist Oxford in establishing proper
    procedures for monitoring customer accounts to increase the likelihood that all
    service addresses are metered. The CFO also noted Oxford has installed the
    meter which was not in place at the time of the audit. See Appendix B for
    TVA's complete response.

    Auditor's Response – The OIG concurs with the actions taken, and no further
    action is necessary.

6. Modify the collections process to separate electric department funds from those
   of other City services.

    Oxford's Response – Oxford stated they will continue to follow the long
    accepted and approved TVA guidelines for accounting of funds for other City of
    Oxford departments. Oxford further stated they have been and will continue to
    make sure all nonelectric funds are properly accounted for and transmitted as
    soon as possible to the correct City of Oxford department. See Appendix A for
    Oxford's complete response.




Audit 2008-12036                                                            Page 15
Office of the Inspector General                                          Audit Report


    TVA Management's Comments – The CFO stated TVA management is
    satisfied the distributor's processes for tracking and segregating funds of the
    electric department from other funds of the Municipality are consistent with the
    power contract. Although cash collections for other city services are deposited
    into the same bank account, they are separately accounted for in the general
    ledger. TVA stated they are aware payments to the City consistently lag two
    months behind the actual collections of other City services and this is a direct
    function of the billing process. TVA management plans no action on this issue.
    See Appendix B for TVA's complete response.

    Auditor's Response – If TVA management accepts the mingling of electric
    system funds and accounts with other funds and accounts of the Municipality,
    we suggest TVA consider modifying Section 1 of the power contract in their
    planned formal implementation of a rate change to no longer prohibit such
    actions.

7. Put procedures in place to monitor results of independent meter tests and to
   modify customer billings within the allotted amount of time for any meters that
   test over two percent fast or slow.

    Oxford's Response – Oxford stated they have now implemented procedures
    for adjustments to be made when necessary. See Appendix A for Oxford's
    complete response.

    TVA Management's Comments – The CFO stated they agree with this
    recommendation and that it is important for the distributor to modify or make
    adjustments to customers' accounts when meter tests reveal an excess of
    2 percent, fast or slow. TVA also noted the distributor has implemented
    procedures for modifying or making these adjustments to a customer's account
    within a timely manner as provided for in the Distributors Rules and
    Regulations. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the actions taken, and no further
    action is necessary.

8. Close out completed capital projects in a timely manner from Construction
   Work in Progress to Fixed Assets.

    Oxford's Response – Oxford stated they are working on their process of
    closing work orders so the work orders can be closed on a more timely basis.
    See Appendix A for Oxford's complete response.




Audit 2008-12036                                                            Page 16
Office of the Inspector General                                             Audit Report


    TVA Management's Comments – The CFO stated they rely on the
    distributor's independent auditor to ensure that financial statements properly
    reflect all balances and are in compliance with GAAP and the FERC Uniform
    System of Accounts. TVA also noted the distributor is working on its processes
    for closing out work orders so it can be booked to Fixed Assets in a more timely
    manner. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the planned actions.

9. Obtain proper documentation for any customers receiving credits under a TVA
   credit program such as Small Manufacturing Credit.

    Oxford's Response – Oxford stated the missing application was apparently
    lost during their move to a new office building in 2002. The identified company
    is closing in 2009; however, Oxford will ensure future credit certifications are
    kept on file. See Appendix A for Oxford's complete response.

    TVA Management's Comments – The CFO agreed with our recommendation
    and stated that going forward TVA would work with the distributor to obtain
    proper documentation from any customer wishing to qualify for any of TVA's
    credit programs, such as Small Manufacturing Credit. They also noted the
    distributor says it will ensure that future credit certifications are kept on file.
    See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the planned actions, and no
    further action is necessary.

The CFO should:

10. Put procedures in place to perform joint cost studies with each distributor that
    shares costs with other entities at least every three to four years as required by
    the TVA Accountant's Reference Manual.

    TVA Management's Comments – The CFO stated TVA management realizes
    that these are important studies and help allocate costs correctly. However,
    they stated that it is very labor intensive, and currently TVA is addressing the
    resources and training required for the Field Accountants to perform these
    studies. The CFO noted that these studies will need to be performed on most
    of TVA's Municipal Distributors. The CFO indicated TVA will work toward
    implementing these studies as additional resources are hired. Target date to
    begin these studies is January 2010. See Appendix B for TVA's complete
    response.

    Auditor's Response – The OIG concurs with the planned actions.




Audit 2008-12036                                                               Page 17
Office of the Inspector General                                          Audit Report


11. Develop guidance to indicate when a distributor should require that a demand
    meter be installed for GSA Part 2 customers.

    TVA Management's Comments – The CFO stated that such guidance is
    provided in the Determination of Demand Section of the GSA Rate Schedule.
    The CFO noted this rate schedule states, "Distributor shall meter the demands
    in kW of all customers having loads in excess of 50 kW." The CFO also noted
    the distributor is in the process of installing demand meters on customers that
    might fall into this classification.

    In addition, the CFO stated TVA will provide guidance to all distributors that
    they evaluate the installation of a demand meter once a customer's monthly
    usage exceeds 25,000 kWh since it is probable that such a customer would
    meet the 50 kW thresholds for demand charges for GSA Part 2 customers.
    TVA management also indicated a distributor should also consider factors such
    as the nature of the customer's business, operating patterns, and electrical
    equipment and building specifications when considering the installation of a
    demand meter. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the planned actions.




Audit 2008-12036                                                            Page 18
APPENDIX A
 Page 1 of 2
APPENDIX A
 Page 2 of 2
APPENDIX B
 Page 1 of 5
APPENDIX B
 Page 2 of 5
APPENDIX B
 Page 3 of 5
APPENDIX B
 Page 4 of 5
APPENDIX B
 Page 5 of 5
